               United States Department of the Interior
                                Office of Inspector General
                                      Washington, D.C. 20240


                                                                                 August 27, 2004




Honorable Christopher Dodd
United States Senate
Washington, D.C. 20510-0702

Dear Senator Dodd:

        This is in response to your March 12, 2004 letter in which you requested the Office of Inspector
General (OIG) to conduct an investigation into the process associated with the Bureau of Indian Affairs’
(BIA) Final Determination decision of Federal acknowledgment as an Indian tribe to a group known as
the Schaghticoke Tribal Nation (STN). Your letter referred to allegations in a March 12, 2004 article in
the Hartford Courant, which criticized the acknowledgment because the group allegedly did not meet all
of the mandatory criteria for Federal acknowledgment. In response to your letter, the OIG initiated an
investigation. Subsequently, the OIG received a request from the Secretary of the Interior, Gale A.
Norton, asking the OIG to give this matter high priority, given its importance and the concerns raised.

        The newspaper article alleged that (1) BIA “bent the rules” to grant acknowledgment to the STN;
(2) BIA’s Office of Federal Acknowledgment (OFA) authored a briefing paper explaining how the
STN’s petition could be approved; (3) STN supporters influenced BIA officials to award
acknowledgment to STN; and (4) an OFA employee had a personal bias against the Connecticut
Attorney General’s Office that may have influenced the review and acknowledgment process. We
reviewed thousands of documents related to the STN petition and interviewed the senior Department of
the Interior (DOI) officia ls involved in the acknowledgment process, officials representing the State of
Connecticut and affected Connecticut towns, STN leaders, and supporters of the STN in the Federal
acknowledgement process.

Background

        In connection with a lawsuit against Connecticut for 900 acres of land adjoining the STN
reservation, STN filed a petition for Federal acknowledgment as an Indian tribe with BIA. In May 2001,
the U.S. District Court with jurisdiction over the lawsuit issued a court-approved negotiated scheduling
order that addressed the group’s land claim issue and resolution of the group’s recognition status. The
group failed to submit adequate documentation to BIA by the court- imposed deadline, and on December
5, 2002, BIA issued its Proposed Finding denying Federal acknowledgment. Subsequent to the issuance
of the Proposed Finding, during the comment period, the group submitted additional information to BIA
for consideration. With the additional information, BIA issued its Final Determination acknowledging
the STN as a Federally recognized tribe on January 29, 2004.
Investigative Findings

       Allegation that BIA “bent the rules”

        The Hartford Courant article alleged that BIA “bent the rules” by granting STN Federal
acknowledgment. On December 5, 2002, the former Assistant Secretary – Indian Affairs issued
a Proposed Finding that denied STN Federal acknowledgment because the group failed to meet
the requirements of the Code of Federal Regulations (CFR) Title 25, Chapter 1, Part 83,
“Procedures for Establishing that an American Indian Group Exists as an Indian Tribe.” The
Proposed Finding stated that STN did not meet two out of the seven mandatory criteria for
obtaining Federal acknowledgment. Specifically, STN did not demonstrate the continual
existence of a distinct community from 1940 to 1967 and from 1996 to the present, and STN did
not maintain political authority and influence for specific time periods from 1801 to present.

        After the Proposed Finding was issued, the regulations provide for a period in which the
petitioner and third parties may submit comments and additional information to BIA. During
the comment period, STN did submit additional information to address these two criteria, which
was considered by BIA in issuing its Final Determination.

        On January 29, 2004, the Principal Deputy Assistant Secretary – Indian Affairs issued a
Final Determination acknowledging the STN as a federally recognized tribe. The Final
Determination stated that the additional information submitted by STN provided sufficient
evidence to meet the requirements of the two criteria that had been lacking. The regulations, as
written, are permissive and inherently flexible, and therefore afford latitude in the evidence used
and considered to support Federal acknowledgment.

        Whether or not the Principal Deputy Assistant Secretary – Indian Affairs acted within her
regulatory discretion is not for the OIG to decide. Rather, we note that this matter is on appeal
before the appropriate administrative tribunal, the Interior Board of Indian Appeals, which has
jurisdiction to adjudicate this issue.

       Allegation that briefing paper is a “smoking gun”

        An OFA briefing paper, which was contained in the administrative record, was described
as a “smoking gun” in various news articles. A team of OFA employees (a historian, a
genealogist, and a cultural anthropologist) was responsible for reviewing STN’s application for
Federal acknowledgement and preparing the briefing paper for the Principal Deputy Assistant
Secretary – Indian Affairs to assist her in making a decision regarding STN’s acknowledgment.
The options contained in the briefing paper were discussed in a meeting among the OFA team
members, the Principal Deputy Assistant Secretary – Indian Affairs, and an attorney from the
Office of Solicitor. Our investigation determined that the team prepared the briefing paper with
knowledge that it would be subject to full public disclosure and part of the STN administrative
record.
       Allegation that STN representatives influenced BIA officials

        Our investigation found no evidence to support the allegation that lobbyists or
representatives for STN directly or indirectly influenced BIA officials to grant Federal
acknowledgment to STN. Interviews with STN’s leader and council representatives disclosed
that the Federal acknowledgment process cost the group approximately $12 million. In pursuing
its land claim, the group incurred even more costs.

        In order to cover these costs, the group sought supporters and ultimately secured several
financial backers, including Frederick A. DeLuca, founder of the Subway restaurant chain and a
member of a small investment group known as the Eastlander Group in Hartford, CT. The
Eastlander Group employs Paul Manafort as a consultant who facilitates communications
between Eastlander and the STN. Mr. Manafort was reported in at least one article as having
lobbied DOI on behalf of STN.

        The Eastlander Group’s managing director told us that no one from the Eastlander Group
had contacted DOI employees regarding STN’s Federal acknowledgment. Mr. Manafort also
told us he had no contact with DOI employees regarding STN’s Federal acknowledgment. The
DOI employees we interviewed also denied having been contacted by any STN lobbyist about
the STN Federal acknowledgment petition, and our investigation found no independent evidence
of any contact.

       Allegation of personal bias against the Connecticut Attorney General

        Finally, we addressed the allegation that an OFA employee had a personal bias toward
the Connecticut Attorney General that may have influenced the review and Federal
acknowledgment process. Representatives of the Town of Kent, CT, referred to e- mails in the
administrative record authored by one of the OFA staff as evidence of personal bias. Using the
Federal Acknowledgement Information Resource database for the STN petition, we searched for
and identified 114 e-mails in the STN administrative record. We reviewed each e-mail,
regardless of author and found none that could be construed as showing a personal bias toward
the Attorney General.

         Although the STN recognition decision was highly controversial, we found that OFA and
the Principal Deputy Assistant Secretary – Indian Affairs conducted themselves in keeping with
the requirements of the administrative process, their decision- making process was made
transparent by the administrative record, and those parties aggrieved by the decision have sought
relief in the appropriate administrative forum – each, as it should be. Therefore, we are closing
this matter.

       If you have any questions or additional concerns, please do not hesitate to contact me at
(202) 208-5745.

                                             Sincerely,



                                             Earl E. Devaney
                                             Inspector General
